0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 40 bound
copies and 1 unbound copy of the foregoing Brief for
Atlantic Richfield Company as Amicus Curiae in
Support of Respondent in 20-382, Government of
Guam v. United States of America, were sent via Next
Day Service to the U.S. Supreme Court, and 3 copies
were sent via Next Day Service and e-mail to the
following parties listed below, this 31st day of March,
2021:
Gregory George Garre
Latham & Watkins LLP
555 11th Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2200
gregory.garre@lw.com
Counsel for Petitioner
Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square

1300 I Street, NW, Suite 400E
I Washington,
DC 20005

Shannon Wells Stevenson
Counsel of Record
Kenzo S. Kawanabe
Benjamin B. Strawn
Aditi Kulkarni-Knight
Davis Graham & Stubbs LLP
1550 17th St., Suite 500
Denver, CO 80202
(303) 892-9400
shannon.stevenson@dgslaw.com
Elisabeth S. Theodore
Stephen K. Wirth
Arnold & Porter Kaye Scholer LLP
601 Massachusetts Ave. NW
Washington, DC 20001
Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on March 31, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

~vvt

cJ!f1t, I()' @~

Notary Public
[seal]

3 1., d0d(

